No.

IN THE
SUPREME COURT OF THE UNITED STATES
LYNN WEINBERG - PETITIONER.
vs.
DEBORAH BORT - RESPONDENT

PROOF OF SERVICE
I, Lynn Weinberg, do swear or declare that on this date, October 3,2020, as
required by Supreme Court Rule 291 have served Deborah Bort's counsel by
depositing an envelope containing the above documents in the United States mail
properly addressed and with first class postage prepaid.
Cahen Law, P.A. 1900 Glades Road Suite 270 Boca Raton, FL 33431 Telephone:
(561) 922-0430 /s/ Geoffrey M. Cahen Geoffrey M. Cahen, Esq. Florida Bar No.
13319 Email: Geoff@CahenLaw.com

I declare under penalty of peijury that the foregoing is true and correct.
Executed on

04-3

. 2020.

. Weinberg

i

OCT \»

